Audit of Costs Associated
With Visiting Personnel



 National Science Foundation
 Office of Inspector General


       July 23, 2004
       OIG 04-2-006
                         Audit of Costs Associated with Visiting Personnel



                                               TABLE OF CONTENTS

INTRODUCTION.................................................................................................................1
     Background ...................................................................................................................1
     Objective, Scope & Methodology ..................................................................................2
RESULTS OF AUDIT..........................................................................................................5
     Incremental Costs Associated Visiting Personnel .........................................................5
     Administrative Improvements for IPA and VSEE Programs..........................................9
APPENDICES
AGENCY RESPONSE ......................................................................................................13
INDIVIDUAL RESEARCH AND DEVELOPMENT PLANS ESTIMATES ..........................14
                  Audit of Costs Associated With Visiting Personnel


                                      INTRODUCTION

Background

The National Science Foundation’s (NSF) mission is to promote the progress of science;
to advance the national health, prosperity, and welfare; and to secure the national
defense. NSF accomplishes this mission by initiating and supporting, through grants
and contracts, scientific, engineering, and education research. In order to stay in the
forefront of scientific initiatives and innovation, NSF relies on the services of highly
qualified scientists and engineers in a broad spectrum of fields. NSF constantly
refreshes and supplements its permanent professional staff with individuals borrowed
from the nation’s finest research and education institutions, organizations and industry.
The Federal Government’s Intergovernmental Personnel Act Mobility Program, and
NSF’s Program for Visiting Scientists, Engineers and Educators (VSEE) are known as
“rotator” programs, and are NSF’s primary vehicles for employing temporary professional
personnel.


Intergovernmental Personnel Act Mobility Program
The Intergovernmental Personnel Act (IPA) of 19701 established a Federal employment
program that allows the temporary assignment of personnel between Federal agencies
and other governmental, academic, tribal, and eligible non-profit organizations. The Act
permits individuals to serve in a temporary capacity for a period of up to four years.
Consistent with the intent of the Act, IPA assignments can strengthen management,
assist in the transfer and implementation of new technology, involve officials of other
organizations in developing and implementing Federal policies and programs, and
enhance the professional abilities of the participants. Most IPAs return to their home
institutions following their tour of duty bringing with them their newly acquired
knowledge, benefiting both Federal agencies and non-Federal organizations.

Although IPAs are considered employees of the borrowing agencies for many purposes,
in actuality, they remain employees of their home institutions. Thus, they are not entitled
to pay from the borrowing agencies and are not subject to federal pay benefits and
limitations. NSF reimburses the home institution for an IPA’s salary and benefits using
grants funded through its Research and Related Activities (R&RA) and Education and
Human Resources (EHR) Activities appropriations and therefore, does not expend funds
from the Salaries and Expenses (S&E) appropriation, used to pay its permanent staff.


Visiting Scientists, Engineers, and Educators

The National Science Foundation Act 2 gives the Director the authority, “in accordance
with such polices as the National Science Board chooses to prescribe, to appoint to the

1
  Intergovernmental Personnel Act of 1970, Pub. Law 91-648, 84 Stat. 1909, § 401 and 5 U.S.C.
§ 3371 – 3376.
2
  42 U.S.C. § 1873 (a) (2).


                                              1
agency for a limited term or on a temporary basis, scientists, engineers, and other
technical and professional personnel on leave of absence from academic, industrial, or
research institutions.” Like the IPA program, individuals appointed under this authority
and serving under the Visiting Scientists, Engineers, and Educators (VSEE) program
benefit both the Foundation and the VSEE participants’ home organizations. It provides
NSF with professionals active in scientific, engineering, and education fields, and
provides the VSEEs and their organizations with active exposure to the philosophy and
mechanisms of Federal support for research. VSEEs are appointed for a period of one
year and the appointment may be extended for an additional year.

As temporary federal employees, NSF pays the salaries of the VSEEs directly through
its S&E appropriation. Although VSEEs are federal employees for salary purposes, they
do not receive federal benefits and continue to receive benefits through their home
organizations.


Administration of Visiting Personnel

The Division of Human Resource Management (HRM) administers the IPA and VSEE
programs for NSF. In addition to its normal recruiting, hiring, processing, and retaining
activities for permanent and other non-rotational staff, HRM continually performs these
activities, as well as additional processing, for rotators in the two programs. HRM
calculates participants' salaries, coordinates with the IPAs’ and VSEEs’ home
organizations to determine salary and fringe benefit reimbursements, and coordinates
with NSF’s Division of Financial Management to establish grants and reimbursement
accounts. The efforts required by HRM are incessant because of the continual turnover
associated with the programs. In the past two years, HRM serviced approximately 220
IPAs and VSEEs annually, with a staff of 3 full-time and 3 part-time personnel. The
additional administration associated with the continual turnover of rotators is a basic cost
of the programs that we did not quantify.


Objectives, Scope & Methodology

Our audit objectives were to determine if NSF is managing IPA and VSEE appointments
in accordance with established federal guidelines and to identify the factors affecting the
costs associated with rotator personnel. This audit addresses NSF’s compliance with
rules and regulations governing only the IPA and VSEE programs and identifies the
costs associated with appointing IPAs and VSEEs; this audit did not evaluate the costs
of other programs NSF uses to hire temporary scientists, engineers, and educators. We
also did not assess the extent that the intended benefits of the IPA and VSEE programs
were realized. The National Academy of Public Administration made this assessment in
its report, National Science Foundation: Governance and Management for the Future,
issued in April 2004.

To accomplish our audit objectives, we obtained all the IPA and VSEE data from NSF’s
personnel system as of March 31, 2004. We verified the data were accurate and
complete by comparing it to the rotators’ personnel files. We used Audit Command
Language (ACL) software to analyze the data, including identifying the various cost
sources and incremental costs of the IPA and VSEE programs.



                                             2
We also included the estimated travel costs of Individual Research and Development
Plans (IR/Ds) in our analysis. An IR/D is an optional benefit available to all NSF
employees but IPAs and VSEEs are the primary users. Therefore, the costs associated
with IR/Ds must be considered in our analysis. We reviewed 100 percent of the IR/Ds
active as of May 21, 2004, to determine whether each participant was appointed to NSF
as a permanent, IPA, VSEE, or other temporary employee. Specifically, 73 percent of
the currently appointed IPAs and 77 percent of the currently appointed VSEEs have
IR/Ds. Furthermore, IPAs and VSEEs together account for 75 percent of the active
IR/Ds approved by NSF. Permanent and other categories of temporary employees have
the remaining 25 percent. Because of time constraints, we limited our analysis to the
costs estimated by the individual researchers and approved by NSF. As such, we
reviewed each IR/D proposal to determine the participant’s estimated days away from
NSF, the estimated number of trips the research would require, and the estimated travel
costs of these trips. We did not verify whether IR/D participants actually used the stated
number of research days and travel costs.

To determine if NSF is managing IPA and VSEE appointments properly, we used
applicable laws and regulations, as well as OPM’s and NSF’s guidance. We selected
the 30 highest paid VSEEs and 30 highest paid IPAs to verify that NSF obtained all
required documentation and performed appropriate background checks. We also
verified that NSF did not exceed federal regulations regarding the length of these
assignments.

To determine if NSF supported payments for lost consulting income appropriately, we
reviewed 100 percent (48) of the IPAs receiving payments for lost consulting. Because
NSF did not have guidance defining acceptable supporting documents for consulting
income, we obtained HRM’s agreement as to minimum criteria for adequate
documentation. We then compared the supporting documentation submitted by the
IPAs to the minimum criteria to assess whether the consulting income was supported
adequately.

We selected a random sample of 58 of the 147 IPAs and recomputed their salary
calculations to determine the accuracy of NSF's salary compensation computations. In
addition, we analyzed these computations to identify trends and reasons for errors.
Finally, as we used a random sample, we statistically projected the pay computation
results to the entire IPA universe, at a 95 percent confidence level.

To identify potential duplicate payments in cost of living adjustments, we reviewed the
Economic Research Institute’s methodology for computing the cost of living percentages
that NSF applies to salaries of VSEEs who relocate to Arlington, Virginia.3 In addition,
we reviewed the President’s Federal Pay Council’s methodology for establishing the
federal rate of locality pay, to identify the components included in locality pay. Further,
we reviewed the NSF Act to identify the pay authority for VSEEs and rules concerning
the pay authority and reviewed the National Science Board’s minutes from 1988 to 1995.
Finally, we reviewed the 30 highest paid VSEEs’ files to determine the number of VSEEs
that received cost of living adjustments and the amount of those adjustments.



3
 NSF uses software developed by Economic Research Institute to determine the cost of living
percentage it pays VSEEs.


                                              3
Incremental Cost

An incremental cost is defined as the difference in cost between any two alternatives. In
our audit, we identified costs associated with appointing rotators. NSF would incur some
of these costs regardless of whether permanent federal employees or rotating personnel
were used. However, some of these costs are only incurred as a result of using rotators.
For example, IPAs’ salaries are not subject to federal pay limitations; therefore, the
difference in salary that an IPA receives compared to what a federal employee would
receive in the same position is an incremental cost. Incremental costs also include
payments to rotating personnel for lost consulting income because federal employees do
not receive the payments.

We conducted our audit work between March 2004 and June 2004, in accordance with
the Comptroller General’s standards for audits contained in the Government Auditing
Standards.




                                           4
                                     RESULTS OF AUDIT

Consistent with the intent of the Intergovernmental Personnel Act (IPA) Mobility Program
and NSF’s Visiting Scientist, Engineer and Educator (VSEE) program, NSF’s use of
rotating professionals helps it stay abreast of scientific initiatives and innovations.
However, for these highly qualified scientists, engineers, and educators, NSF incurs
additional costs in the form of higher salaries (IPAs only) and other benefits.

In addition to identifying the additional costs associated with the use of rotating
personnel, we reviewed VSEEs’ and IPAs’ pay calculations and identified opportunities
for improving NSF’s administration of these programs. Specifically, HRM needs to
provide criteria for acceptable documentation to support consulting income paid to
rotators, improve the accuracy of IPAs’ salary computations, and remove duplicative
factors considered in computing VSEEs salaries.

Incremental Costs Associated with Visiting Personnel

NSF’s policy is to ensure that participants in the IPA and VSEE programs receive
salaries that are equivalent to those they receive from their respective home
organizations, and that they are not adversely affected financially by accepting
temporary assignments at NSF. As such, NSF funds a number of personnel
compensation and benefit costs for IPA and VSEE participants that it would not incur if
permanent federal employees filled these positions.

As of March 31, 2004, NSF employed 147 IPAs and 39 VSEEs at an approximate
annual cost of $23 million and $4.6 million respectively. NSF’s additional annual cost for
relying on IPAs rather than permanent employees was approximately $1.3 million, an
average of $8,518 per IPA. For VSEEs, NSF does not incur any additional salary and
benefit costs. 4 If one includes estimated travel costs associated with Individual
Research and Development Plans, the annual incremental cost for IPAs and VSEEs
increases to approximately $2.4 million. The incremental costs of these two rotator
programs are comprised of a number of factors reflected in the following table and
explained below.




4
  NSF avoids a future cost obligation by using rotators because they are not eligible to receive
federal retirement benefits. This obligation is not quantified. Retirement benefits from the
rotators’ home organizations may be reimbursed for the term of the rotators’ NSF assignments,
along with other fringe benefits.


                                                5
    Table 1: Annual Incremental Costs for IPAs and VSEEs
    Annual Incremental Costs                       IPAs              VSEEs          Total
    Salary                                     $1,311,778              $0         $1,311,778
    Fringe Benefits                                     $0             $0                 $0
    Lost Consulting                               $311,121             $05          $311,121
    Relocation/Per Diem                                 $0             $0                 $0
    IPAs’ Home Institution Cost Sharing         ($370,795)             $0         ($370,795)
    Total Annual Incremental Costs to          $1,252,104              $0         $1,252,104
    NSF

    Estimated Annual IR/D Costs                        IPAs          VSEEs           Total
    Estimated IPA and VSEE Individual
    Research & Development Plans (IR/D)             $1,152,398      $162,317      $1,314,715
    Travel Costs
    Estimated Permanent and Other                                                  ($188,551)
    Temporary Employee IR/D Travel Costs
    Total Incremental Estimated IR/D Travel                                       $1,126,164
    Costs
    Total Annual Incremental Costs to                                             $2,378,268
    NSF including IR/Ds.

Salaries: Although IPAs’ salaries, on average, are paid at levels comparable to Federal
employees, 49 of the 147 (or 33 percent) of the IPAs’ salaries exceeded Federal pay
limitations. When an IPA’s salary exceeds the maximum Federal pay for a position filled
by an IPA, the excess salary is an incremental cost. Since NSF pays the cost of these
higher salaries, NSF incurred an incremental cost of $1,311,778 to fund these 49 IPAs.

NSF does not incur any incremental costs for the VSEEs’ salaries because their salaries
are limited by the federal pay scale for the positions they occupy. If an IPA’s or VSEE’s
salary at their home organization is less than the minimum Federal salary for the NSF
position they occupy, NSF increases their salary to that minimum amount.

Fringe Benefits: NSF pays the home organization’s contribution to the IPAs’ and
VSEEs’ fringe benefit package. NSF’s average percentage for fringe benefits paid on
behalf of its permanent employees is approximately 22 percent. The average
percentage NSF pays for an IPA’s fringe benefit is 25 percent and 14 percent for
VSEEs. Consequently, as the fringe benefit costs for IPAs and VSEEs are similar to
those for permanent employees, NSF does not incur any material incremental fringe
benefit costs for rotators.

Lost Consulting: An IPA is eligible for up to $10,000 annually for consulting income lost
due to accepting an appointment at NSF, if the IPA agrees to forego consulting activities
while at NSF.6 Because permanent federal employees do not receive payments for lost
consulting income, this is an incremental cost to NSF. NSF pays 48 of the 147 IPAs (or
33 percent) lost consulting payments totaling $572,719 over the term of the IPAs’

5
  For VSEEs, lost consulting amounts are included in the employee’s salary, which is limited by
the Federal pay scale for the position.
6
  If the IPA chooses to continue his/her consulting activities, then the IPA must obtain written
permission from NSF’s Designated Agency Ethics Official.


                                                6
assignments. The $311,121 list in Table 1 is the annual amount NSF paid for the IPAs
during the first year of their assignment.

NSF does not incur an additional cost for VSEEs because they do not receive a
separate payment for lost consulting, but are paid at the Federal salary rate applicable to
the position. Consulting fees are added to the VSEEs’ organizational base salary to
establish the federal salary.

Relocation/Per Diem: It is likely that highly qualified temporary scientists, engineers, and
educators will come from the same geographic areas to work for NSF as permanently
employed scientists, engineers, and educators. Permanent employees, IPAs, and
VSEEs are all eligible to receive a household move and/or partial reimbursement for
lodging, meals and incidental expenses for relocating to the Washington, D.C.
Metropolitan Area. Consequently, NSF does not incur additional relocation costs for
IPAs and VSEEs.

Cost Sharing: Institutional cost sharing reduces NSF’s costs for IPAs. The Office of
Personnel Management’s IPA guidance7 states that the home institution may agree to
pay all, some, or none of the costs associated with an IPA assignment. To the extent
that the home institution agrees to provide cost sharing, NSF’s cost for the IPA is
reduced. While it is NSF’s policy to request at least 15 percent cost sharing, not all
institutions contribute or they contribute at a lesser level. Currently, 35 of the 147 (or 24
percent) IPAs’ home institutions share the salary costs, thereby reducing NSF’s costs by
$370,795. Although not an incremental cost, an IPA’s home institution may also share
fringe benefit costs. Fourteen of the 35 (or 40 percent) IPA home institutions cost share
at the NSF requested rate of 15 percent.

Individual Research and Development Plans: An Individual Research and Development
Plan (IR/D) is a method NSF uses to provide all of its permanent employees the
opportunity to maintain professional competencies, and to provide its rotators and other
temporary employees the opportunity to maintain involvement with their ongoing
research. Under an IR/D, the employee receives both the time away from regular duties
and the travel costs necessary to conduct research. Because NSF’s rotational
employees are the primary users of IR/Ds, we subtracted NSF’s permanent and other
temporary employees’ estimated travel costs from the IPAs’ and VSEEs’ estimated
travel costs to determine NSF’s incremental cost. IPAs and VSEEs annual estimated
travel costs related to IR/D activities were $1,314,715 and permanent and other
temporary employees annual estimated travel costs were $188,551. The total annual
IR/D incremental cost for IPAs and VSEEs is $1,126,164.

NSF’s senior management must approve an individual’s IR/D proposal and the proposed
research and development activities may not interfere with other assigned duties. The
research activities must also relate to accomplishing NSF’s goals. In order to take
advantage of this opportunity, an IR/D participant must provide NSF with a proposal
containing a description of the research or development activity, an estimate of the time
he/she expects to be away from NSF, estimated travel costs, and a description of how




7
    Provisions of the IPA Mobility Program is found at www.opm.gov/programs/ipa/Mobility.asp


                                                 7
the research results will be reported.8 NSF will allow up to 50 days per year away from
regular NSF duties for the individual’s research.

Although IR/Ds are available to all employees, IPAs and VSEEs are the main
participants. As of May 21, 2004, NSF had 183 active IR/Ds on file of which 137 (or 75
percent) were for IPAs and VSEEs, and 46 (or 25 percent) were for permanent or other
categories of temporary NSF employees. Therefore, it is more likely that NSF will incur
the additional costs of the IR/D benefit with its IPA and VSEE program participants than
with permanent program staff.9 To the extent that the estimates provided in the IR/D
proposals are realized, NSF will annually contribute 5,238 staff days or 20 full-time
positions10 and $1.3 million in travel costs to support IPA and VSEE independent
research.

To determine the incremental cost associated with IPAs’ and VSEEs’ IR/Ds, we used the
participants’ estimated days and estimated travel costs listed in their approved IR/Ds.
We did not verify whether the participants actually used the stated number of research
days or travel costs. Appendix B of this report contains detailed IR/D estimates by NSF
appointment type.




8
  Reporting on the results of an employee’s research helps to ensure accountability. Reporting
results methods include discussing IR/D activities in Division meetings, providing a list of
publications resulting from IR/D support (if required), and providing periodic written and oral
reports to Associate and Division Directors. NSF has not implemented specific requirements for
reporting IR/D results.
9
  Of the approximately 1100 permanent and other categories of temporary employees, only 46
had approved IR/Ds.
10
   A full-time federal employee works 261 days per year. Total estimated days for IPAs’ and
VSEEs’ IR/D activities of 5,238, divided by 261 days per year equals the equivalent of 20 full-time
positions.


                                                8
                               Administrative Improvements
                                for IPA and VSEE Programs

Overall, we found that NSF complies with Office of Personnel Management and NSF
rules and regulations governing rotator assignments. NSF is obtaining required
certifications for such items as “no lobbying” and “drug-free work place” assurances,
performing background investigations, and obtaining the information necessary to
process rotator assignments. NSF is computing VSEEs’ salaries and fringe benefits
correctly, but is not always computing IPAs salaries accurately.

We identified three areas where NSF could further improve its administration of the IPA
and VSEE programs:

        1) NSF needs to obtain better documents to support lost consulting payments.
        2) Because the calculations to determine IPAs’ salaries are complex and
           manually computed leading to errors, NSF should consult with an information
           technology professional to determine the feasibility of automating the
           computation.
        3) NSF should explore alternative methodologies for computing VSEEs’ salaries
           to eliminate consideration of duplicative factors for per diem, health benefits,
           taxes, and locality pay.

Consulting Income Documentation

Although acceptable under NSF’s guidance, HRM obtained documentation supporting
consulting income that, in our opinion, is inadequate for 44 (or 92 percent) of the 48 IPAs
that are receiving lost consulting payments. The inadequately supported payments
totaled $494,200 (or 86 percent), of the total $572,719 lost consulting payments over the
term of the assignments for the 48 IPAs.

For example, for 31 (or 70 percent) of the 44 payments NSF accepted either the IRS
Schedule C, Profit or Loss From Business, or the IRS Form 1099, Miscellaneous Income
as evidence of the amount of consulting income an IPA has historically received and
was foregoing in order to work for NSF. While these forms support an IPA’s gross
income, neither supports that the income received was for consulting services as
opposed to other services or business activities.11

Neither NSF’s Personnel Manual nor the Office of Personnel Management provides
guidance concerning acceptable forms of documentation to support lost consulting
payments. At a minimum, NSF should require documentation from its rotators that
clearly evidences consulting services were rendered, such as the dates of service,
confirmation of amounts paid, and a description of services provided for each consultee.

Detailed supporting documentation minimizes the risk of fraud and misrepresentation of
consulting income for lost consulting payments. In addition, it ensures that IPAs are
receiving proper and accurate lost consulting payments from NSF.



11
  The Schedule C only lists gross income, total expenses by category, and net profit or loss, and
the Form 1099 only provides the name of the payee and a total amount paid.


                                                9
Recommendation 1-1

We recommend that the Director, Division of Human Resource Management,
incorporate criteria into the NSF Human Resource Management policy and procedures
that, at a minimum, clearly evidences the existence and amount of lost consulting
income for which NSF is making payment. NSF should also train HRM personnel to
implement the new policy.

Agency Comments

NSF concurred with this recommendation.

Pay Computations

NSF did not always correctly calculate IPAs’ salaries and fringe benefits. Specifically,
our review of 58 IPA personnel files found 31 errors affecting the accuracy of payments
made for 24 (or 41 percent) IPAs. While the average error was an overpayment of $338,
the errors ranged on an individual basis from an underpayment of $22,000 to an
overpayment of $19,750.

Arithmetical mistakes were most common, accounting for 9 of the 31 errors. NSF did
not include the second part of the 2003 federal pay raise in the salary adjustments for
four IPAs and did not verify the accuracy of salary and fringe benefit amounts submitted
by eight IPAs’ home institutions.

The effect of these errors is that NSF underpaid salaries and benefits for 15 IPAs by a
total of $44,278, while overpaying $24,653 for 7 other IPAs. It is probable that NSF
incorrectly computed the compensation of between 45 and 65 of the 147 IPAs.12

We attribute these errors to the complex nature of the pay computations for IPAs.
Numerous rules govern these computations, all of which are performed manually.
Further, once calculated, adjustments to an IPA’s salary are often required several times
a year to include salary increases from the IPA’s home institution as well as federal pay
increases. When a federal pay raise occurs, NSF needs to ensure that the IPA is
receiving at least the new minimum salary of the position.

An automated program to compute the IPA salary and other benefit payments would
facilitate a more accurate and efficient computation process. Such an automated
program would better ensure consistent and accurate computations and significantly
reduce the time required by HRM personnel to perform and verify calculations.

Recommendation 2-1

We recommend that the Director, Division of Human Resource Management in
coordination with the Director, Division of Information Systems, develop a program to
automate the IPA salary and benefits computation process.




12
     Statistical projection is at the 95 percent confidence level.


                                                    10
Agency Comments

NSF concurred with this recommendation.

VSEE Cost of Living Adjustments

NSF paid 25 of 30 VSEEs a Cost of Living Adjustment (COLA) as well as per diem,
taxes, health benefits, and locality pay, thereby paying twice for the same costs. These
duplicative COLA payments totaled $317,325, or an average of $12,693 annually, per
VSEE.

To compensate VSEEs for the increased cost of living in the Washington, D.C.
Metropolitan Area (WMA),13 NSF includes an additional amount in the VSEE’s salary
payment. This COLA is based on software developed by the Economic Research
Institute (ERI) and reflects costs paid by individuals living in the WMA. ERI determines
the cost of living for a geographic area based on the following categories: 1)
Consumables, 2) Transportation, 3) Health Services, 4) Housing, 5) Income and Payroll
Taxes, and 6) Miscellaneous.14 The health services, housing, and taxes categories of
ERI’s cost of living percentage duplicate the health benefits, per diem, and partial
income tax reimbursement that NSF pays directly to the VSEE.15 ERI’s cost of living
percentage also includes a transportation category, although VSEEs are eligible to
participate in NSF’s commuting benefits such as, its Public Transportation Subsidy
Program. Also, NSF’s VSEE Cost of Living Adjustment policy specifically excludes
commuter costs from being included in VSEEs’ cost of living payments.

        •   Health Services: VSEEs continue to receive health insurance benefits from
            their home organizations. NSF pays the home organizations’ contribution to
            those health benefits on behalf of VSEEs through its fringe benefit payment.
            However, the COLA NSF pays VSEEs also includes a health services
            category of which health benefits are a major part. When NSF pays the
            VSEEs’ home organizations health benefits directly, it duplicates this portion
            of the COLA.
        •   Housing: NSF pays partial per diem directly to VSEEs to offset housing and
            living expenses the participants incur while completing their appointment at
            NSF. The COLA also includes a housing category. When NSF pays partial
            per diem directly to the VSEEs, it duplicates another portion of the COLA.
        •   Income and Payroll Taxes: For VSEEs receiving partial per diem, NSF also
            pays an Income Tax Reimbursement Allowance (ITRA)16 for federal, state
            and local taxes incurred on the per diem if the assignment is 12 months or
            longer. When NSF pays VSEEs the income tax allowance, it duplicates the
            income and payroll taxes category already included in the COLA payment.

13
   VSEEs only receive COLA if the cost of living in the WMA is greater than the cost of living at
their home organizations.
14
   The Economic Research Institute miscellaneous category includes charitable contributions,
tuition for dependent (or childcare), insurance premiums or deferrals, personal savings,
investments, credit card debt payments, vacations, etc.
15
   Fringe benefits, including health benefits, may be paid directly to the VSEE, the VSEE’s home
organization, or the VSEE’s health benefit provider.
16
   Income Tax Reimbursement Allowance is authorized by the Federal Travel Regulation (41 CFR
Part 301.11).


                                               11
          •   Transportation: Because commuter costs are a part of the transportation
              category of the COLA that VSEEs receive, NSF subsidizes the VSEEs’
              commuter costs. Yet, NSF policy states that the COLA is not intended to
              subsidize commuting costs.

Similar to the COLA, locality pay is also intended to compensate employees for the
additional cost of living in the WMA. Locality pay is paid to federal workers and ensures
that federal salaries are comparable to private sector salaries in the locality area. The
U.S. President’s Pay Agent, the Federal Pay Council, establishes the locality pay
percentage for the areas. In determining the locality pay percentages, the Council uses
data from the Bureau of Labor Statistics’ Occupational Compensation Survey Program,
which also incorporates cost of living allowances included in general wage increases for
federal employees in a specific geographic area. A cost of living allowance is already
included in the pay data used to calculate locality pay. Therefore, paying VSEEs both a
COLA and locality pay appears duplicative.

According to the United States Code,17 NSF’s Director has the authority to, “in
accordance with such policies as the National Science Board chooses to prescribe,
appoint for a limited term, or on a temporary basis, scientists, engineers, and other
technical and professional personnel” and determine the compensation payments of
temporary personnel. Therefore, NSF can use any reasonable methodology it deems
appropriate to determine a VSEE’s adjusted salary. However, NSF should present this
methodology to the National Science Board (the Board) for its review and approval. We
found no evidence of the Board prescribing or approving such policies.

Recommendation 3-1

We recommend that the Director, Division of Human Resource Management explore
alternative methodologies for computing VSEEs’ salaries such that NSF is not paying
twice for the same costs. Whatever methodology NSF implements should be presented
to the National Science Board for its approval, if the Board so chooses.

Agency Comments

NSF’s position is that the Director of NSF has responsibility for implementing policy that
the National Science Board has established. We agree. However, we believe the
United States Code also requires the Board’s involvement in developing policy. As
such, we have amended our recommendation to state that NSF should present this
policy to the Board, rather than requiring NSF to obtain the Board’s approval.




17
     42 USC 16 §1873 (a) (1) and 42 USC 16 §1873 (a) (2).


                                               12
      Appendix A
Agency Comments
                                                       APPENDIX B

 Individual Research and Development Plans Estimates
      by NSF Appointment Type as of May 21, 2004


IPAs’ and VSEEs’ IR/D Estimates
                       Annual
                     Estimated     Annual Estimated
  Appointment Type      Days         Travel Costs
 IPA                    4,134               $1,152,398
 VSEE                   1,104                 $162,317
Total IPAs & VSEEs      5,238               $1,314,715




Permanent and Other Temporary Employees’ IR/D Estimates
                      Annual     Annual Estimated
 Appointment Type Estimated Days   Travel Costs
 Permanent             1,092                $126,597
 Other Temporary        387                  $61,954
      Totals           1,479                $188,551




Total IR/D Estimates
                      Annual       Annual Estimated
 Appointment Type Estimated Days     Travel Costs
 IPA                   4,134                $1,152,398
 VSEE                  1,104                  $162,317
 Permanent             1,092                  $126,597
 Other Temporary        387                    $61,954
      Totals           6,717                $1,503,266




                          14
